Brian Burgess
+1 202 346 4215
BBurgess@goodwinlaw.com

Goodwin Procter LLP
1900 N Street, NW
Washington, DC 20036
goodwinlaw.com
+1 202 346 4000

May 7, 2020

ELECTRONIC FILING ONLY
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street
Washington, DC 20543
Re:

Rose v. Select Portfolio Servicing, Inc., et al., No. 19-1035

Dear Mr. Harris:
I represent respondent Select Portfolio Servicing, Inc., in the above-captioned case. The
petition for a writ of certiorari was placed on the docket on February 19, 2020, and the Court
called for a response on April 20, 2020. The response is currently due on May 20, 2020.
Pursuant to Rule 30.4 of this Court’s Rules, respondents jointly request that the Court
extend the time within which to file a response to the petition to and including June 4, 2020.
An extension is necessary to provide counsel for respondents with adequate time to prepare
the response. I was only recently retained in this matter and require the additional time to
familiarize myself with the record and legal questions presented, while keeping other
professional commitments, including preparation for a summary judgment hearing
scheduled for May 21, 2020.
Counsel for petitioner does not oppose the requested extension.
Sincerely,
/s/ Brian Burgess
Brian Burgess

cc:

Ishan K. Bhabha (via e-mail by agreement of the parties)

